Supre

- sn

AUG 2 7 2021
office

IN THE

ofthe

clerk

I :

Supreme Court of the United States
George Berka,
Petitioner,
v.

City of Middletown, Et. Al.
Respondents.
On a Petition for a Writ of Certiorari
to the Connecticut Appellate Court
PETITION FOR A WRIT OF CERTIORARI
Appearances:
For the Petitioner:
George Berka,
57 Concord St. .
Waterbury, CT 06710
(203) 681-7035

For the Respondent:
Brig Smith,
General Counsel
City of Middletown
245 DeKoven Dr.
Middletown, CT 06457
(860) 638-4820

August 27th, 2021

■ i

QUESTION PRESENTED
Did the subject, February 14th; 2018 Blight Citation that the Defendant City had issued
to. the Plaintiff, violate many of the Plaintiffs important constitutional safeguards?

’ t

TABLE OF CONTENTS
QUESTION PRESENTED

1

TABLE OF AUTHORITIES

n

INTRODUCTION

1

OPINIONS BELOW

3

JURISDICTION

3

STATEMENT OF THE CASE

4

STATUTORY PROVISIONS INVOLVED

11

REASON FOR GRANTING THE PETITION

11

CONCLUSION

12

• Page | i

t

i

TABLE OF AUTHORITIES
t

1. SC-200484, “Petition'for Certification”rFiled: 06-10-2021, Disposed: 06-29-2021

I
I

2. AC-43853, “George Berka v. City of Middletown, Et. Al.”, Filed: 01-27-2020, •
Disposed: 06-08-2021
3. MMX-CV18-5010856-S, “George Berka v. City of Middletown, Et. Al.”, Filed: 05
08-2018, Disposed: 01-16-2020

I

i

i

>

Page I ii

INTRODUCTION
The Defendant, City of Middletown, had issued to the Plaintiff, George Berka, a Notice
of Blight,'by letter, dated January 10th, 2018, for premises located at 5 Maple Place in
Middletown, The notice was for seven (7) alleged blight conditions. The Defendant
then issued to the Plaintiff a Blight Citation on February 14th, 2018, for the seven
separate violations of the blight ordinance and imposed a $100 per day civil fine for
each violation (p. A56). On March 28th,-2018, the Defendant issued a Failure to Pay
Fines Notice for the blight violations (p. A60). The Failure to Pay Fines Notice stated
that the accumulated fines totaled $29,400 (42 days x $700). The Notice also advised
the Plaintiff of his right of appeal. An appeal hearing was conducted by a citation
hearing officer on May 2nd, 2018. The hearing officer issued a revised notice of decision /
assessment on May 7th, 2018, ass6ssing fines through the date.of the appeal, which .
resulted in a total of $53,900 (77 days x $700, p. A69). Thereafter, the Plaintiff timely
filed his petition to reopen the assessment under General Statutes 7-152c (g).
Pursuant to Practice Book 23-51, the Trial Court conducted a de novo hearing on
-November 7^, 2019. The blight proceedings regarding the Plaintiffs property at 5
Maple Place concerned seven separate violations of the Defendant’s Blight Ordinance,
Middletown’s Code of Ordinances, c. 120, art. II, § 120-25A. The subject violations and
the related -sections of the Middletown Code of Ordinances (Code) are as follows: (1)
missing, broken, or boarded windows or doors, if the building is not vacant or
abandoned; id., § 120-20A(2)(a); (2) broken glass, crumbling stone, or other conditions
reflective of deterioration or inadequate maintenance: id., § 120-20A(2)(b); (3) a
collapsing or missing exterior wall, roof, stairs, porch, railings, basement hatchways,
Page | 1

chimneys, gutters, awnings, or other features; id., § 120-20A(2)(d); (4) siding or roofing
that is seriously damaged, missing, faded or peeling; id., § 120-20A(2)(e); (5) the outside
structure walls are not weather-watertight, that is cold air, dampness/roderits* insects,
or vermin; id., § 120-20A(2)(h); (6) garbage, rubbish, refuse; accumulating refuse;
putrescible items, trash or other accumulated debris that is'being stored oti

•

accumulated in the public view; id:, § T20-20A(2)(i); (7) abandoned or inoperable - ■ ■
vehicles are imprbperly stored on the premises; id., § 120-20A(2)(i).' For each of the.1
violations; the notice of blight stated the remedy.
The defendant did not dispute that.at a hearing before this court,-it had the burden to'
establish the violations of the blight ordinance and its entitlement to- an assessment of
fines. The defendant .presented the testimony of Michelle T. Ford, who was the blight
enforcement officer, for the^defendant at the.time of the earlier proceedings. She is no
longer employed by the defendant. Ford testified that she inspected the property on
February 13th, 2018, and took photographs of the alleged blight conditions. After this
inspection, she issued the blight citation dated February 14th, 2018. She again
inspected the property and took more-photographs on March 27th, 2018. Thereafter, she
issued the failure to pay fines notice dated March 28th, 2018, that.was the subject, of the
hearing officer appeal. Ford testified at the May 2nd, 2018 hearing officer appeal; however, there was no evidence presented to this court to establish that Ford ever ■
inspected the property after the March 27th, 2018 inspection.

.

■

Based upon Ford’s testimony and the inspection photographs, the court foimd-that the
blight violations set forth in (1) through (6) above existed on February 14th, 2018, and
continued to exist on March 27th, 2018. Because the defendant did not present evidence
Page | 2

of inspection of the property, after March 27th, 2018, there was found to be a lack of
evidence to establish violations after March 27th, 2018. This determination was without
prejudice to the defendant to pursue blight violations after March 27th, 2018, should it
choose to do so in the appropriate proceedings.
As to blight violation (7), the court did not find that the trailer on the property, which
was the subject of blight violation (7), was inoperable. Although the defendant’s
photograph showed that a fallen tree limb was resting on the top of the trailer, there
was no evidence to establish that the trailer itself was mechanically inoperable. . -The
Plaintiff had'subsequently appealed the matter to the Appellate Court on constitutional
and “right to a jury” grounds, among others, as outlined in Section I above. The
Appellate Court had recently upheld the Superior Court’s decision in Matter # AC43853, and the Connecticut Supreme Court has^denied Petition for'Gertification No. SCi

200484 on June 29^, 2021, which brings us to this Petition for Certiorari

OPINIONS BELOW
The opinions of the Connecticut Appellate Court (AC-43853) and the Connecticut
Superior Court (MMX-CV18-5010856-S) in this matter are listed in the Appendix. They
are also available on line at the Connecticut Judicial Branch web site.

JURISDICTION
The Connecticut Appellate Court had entered its judgment on June 8th, 2021, and the
Connecticut Supreme Court had denied a petition for certification (SC-200484) on June

Page I 3

29th, 2021. Therefore, this Court’s jurisdiction is hereby invoked under 28 U.S'.C. § 1254
(!)•

■

•

STATEMENT OF THE CASE

* i «-

Background
This matter, is the latest in a long “saga” of seven related cases'between the Plaintiff
and the City of Middletown, which: began in the fall of 2014.- Thife ongoing dispute-has
lasted for almost six years now, and is believed to revolve around the central issue of
maximum occupancy] and.not necessarily “blight”,-per se. Blight,.in this case, is ■
believed to be mainly a “tool of coercion”, used by the City to try to force the Plaintiff to
surrender his right of-maximum occupancy for the property. The Plaintiff bases this
belief on-.the fact that the City had approached him in the past,, and.-offered to “settle,
this matter” if an “agreement could be reached” on the maximum occupancy issue::» :■ -

-r

Since the length of this petition is limited to only (10) pages, the Plaintiff also asks this
Court to refer to his Appellate brief for this matter (AC-43853), which more fully
explains the issues in-thiscase. This Petition is only a summary. The main points of
the Plaintiffs argument now follow.

'

u .Cs

Should the Plaintiff Have Been Granted a Jury Trial?
On November 13th, 2018, the Plaintiff had requested a jury trial in his appeal of the
blight citation, and paid the $440 jury fee. (See Entry No. 105.00 in -Matter # MMX^
CV18-5010856-S). :Then, on October 30th, 2019: the City had filed a motion to strike the
Plaintiffs claim for the jury trial (Entry No. 112.00), on the grounds that there is no
Page I 4

right to a jury trial in citation assessment appeals, pursuant to Practice Book § 23-51(c).
On:November 6th, 2019, the Court had granted the City’s motion (Entry No. 112.10).
The title of Section 23-51 of the Practice Book reads “Petition to Open Parking or
Citation Assessment”; it is interesting to note that these blight citations are grouped
together with parking tickets, which are generally around $20, and seldom more than
$100. Perhaps the authors here had these types.of “small” citations in mind when
writing this section,'and it is understandable that they likely saw these small citations
as “too trivial”'to warrant a jury trial. However, a-$53,900 blight fine is a “far. cry” from
a- $20 parking ticket! -Doesn’t a case in which a person’s home is on the line deserve a;
hearing before a jury? After all, people are granted jury trials for far lesser matters.
Therefore, the Plaintiff asks that this blight citation be dismissed, and that the
associated fine be vacated in its entirety, because the Plaintiff was, after all, denied
reasonable access to due process, because he was denied a jury trial. A jury may well
have returned a different verdict when, presented with the facts and evidence in this
case. It is quite possible that at least one or several jurors could have viewed the .
. Plaintiff as a “fellow home owner in a dire predicament”, facing harassment and
substantial fines from the City over questionable allegations, and could have

. - .

sympathized with him more than a single judge did. The jurors may have been more
likely to “place themselves in the Plaintiffs shoes” because, frankly, something like this
could potentially-happen to any one of them as well. For these reasons, perhaps these
types of blight citations, in which large fines are at stake, should be granted jury trials
in the future?

Page I 5

Should the Plaintiff Have Been Allowed to Raise Constitutionality Issues?
Twice the Plaintiff had requested to raise constitutionality issues over blight and,'on
both occasions, his request was denied. First, the Plaintiff had filed a “Request to
Amend the Complaint” (Entry No. 121.00), and then he submitted an Amended ■
Complaint (122.00) on November 4th, 2019; (This Amended Complaint contained the
Plaintiffs argument about the basic constitutionality, (or lack thereof), of blight ;
citations in general.) The City had then objected.to the Plaintiffs request on November
5th; (123.00), and the Court had sustained bhe City objection (123.10), and dismissed the
Plaintiffs request to amend his complaint. During the hearing, the Plaintiff had again
asked the Judge if he could present testimony as to why he believed this entire blight
citation to be unconstitutional in the first place, and again, the Judge denied the
Plaintiffs .request. ,The Plaintiff believes this constitutionality (or, more .accurately, un­
constitutionality) argument against blight citations in general to be of vital importance
here, and that he should have been permitted to present it. The fact that the Trial
Judge had refused to permit the Plaintiff to present this important constitutionality
argument should be tantamount to deprivation of due process of law, and should.be
grounds for the outright dismissal of this blight citation and its associated fine in its
entirety. Also, this is another reason why the jury trial issue (discussed above) is
important here, and why the Plaintiff should have been granted a jury trial. A .jury
may well have seen this constitutionality issue in a substantially “different light’ than
the judge. A jury may well have agreed with the Plaintiff, in that these blight citations
are an assault on some of our most cherished provisions in the Constitution ,and the Bill
of Rights - specifically the provision of the security in our homes and possessions, and
Page I 6

the provision against the unjust taking of our homes without due process of law. It is
possible that from a pool of six jurors, at least one or more would have been deeply
concerned about this issue, and could have decided in the Plaintiffs favor because of it.

This Blight Citation Violates Important Constitutional Safeguards
As he has mentioned in the past, the Plaintiff believes that this blight citation violates
several of his important constitutional safeguards, namely:
1st Amendment, which pertains to “The freedom of speech”, may also be more broadly
applied to one’s freedom of self-expression,.and hence the freedom.to have an unsightly,
or aesthetically offensive home, which others may find objectionable. By seeking to fine
the Plaintiff for items of a purely aesthetic nature, this citation hereby seeks to declare
and enforce one standard of beauty over another, in violation of one’s 1st Amendment
rights to the freedom of speech and self-expression.
4th Amendment, i.e. “The right of the people to be secure in their homes and possessions
shall not be violated.” This provision is infringed upon because this blight citation
effectively gives the Middletown City Government the ability to seize the Plaintiffs : .
home via unreasonably high blight fines, and a subsequent lien. The blight citation also
infringes upon the Plaintiffs general right to privacy, as he has the right to not be disturbed.by city officials over the appearance of his property.
5th Amendment; “People shall .not be, deprived of life, liberty, or property without due
process of law, nor shall private property be taken without just compensation.” This
blight citation, and lienseeks to simply .take the Plaintiffs property without any
compensation whatsoever.
Page | 7

8th Amendment; “Excessive bail shall not be required, nor excessive fines imposed.
Fines of $100 per day for these aesthetic items/and the resulting $25,200 fine would be
viewed by most reasonable people as being “excessive”.
Because it violates these key constitutional safeguards, this blight citation should be
dismissed in its entirety, and the associated fine should be vacated. *
•

i

Shouldn’t One Be Allowed to Board Up Their Basement Windows?. < :
In Item (1) of the blight citation, the Plaintiff was cited for having his basement

•

-

windows boarded up/'He therefore asks why this should not be permitted? People
sometimes board up their basement windows for various reasons, the primary one being
security. Having the basement windows boarded up does help to deter break-ins and
theft, especially.if one has personal property in their basement. Above all, however,
shouldn’t it be the home owner’s prerogative if they choose to board up. their windows?

Was it Fair to Expect Painting and Concrete Work in the Winter?
In Items (2) and (5) of the blight citation, the Plaintiff was asked to perform concrete .
repairs on certain portions of the foundation, and to paint the foundation as well. The
Zoning Officer’s notice of blight was issued on January 10th, 2018,- and the blightcitation, which began to accrue fines, was issued on February 14th, 2018. During these
winter months, the temperatures were cold, and frequently dipped below freezing,
especially at night. It is generally recommended that concrete be pouredwhen the
temperature is above 50°F. The necessary chemical reactions that set and strengthen
concrete slow significantly below 50°F and are almost non-existent below 40°F. The
Page I 8

Plaintiff had also raised this issue during the appeal hearing, and, although the Trial
Judge acknowledged that he understood the Plaintiffs concern, a fine was still imposed.

Was the Zoning Officer Qualified to Make Structural Assessments?
In Item' (3) of the blight citation, the Plaintiff was cited for supposedly having an
“unstable front porch and rear exterior stairs”, among other things. The term
“unstable” is more of a structural assessment, which does, not really apply to blight.
Moreover; questions of structural stability are generally evaluated by qualified
personnel, such as structural engineers. It was established at the appeal hearing that
then- Zoning Officer Michelle Ford is neither a structural engineer, nor does she have
any type of construction background. Ms. Ford testified that she made this
determination only because the front porch and the rear stairs “appeared” unstable; she
did not take any concrete steps to verify that they were indeed unstable. In reality, the
front porch and rear stairs are sound and in daily use, and there is nothing structurally
wrong with them. In any event, the attempt to evaluate the stability of a structure by
an unqualified person, a lay person, was improper, and this type of practice in general
should not be permitted. The soundness of a particular structure, especially when
significant fines are at stake for the home owner, should be evaluated only by qualified
persons, siich as licensed or experienced structural or civil engineers. Since this
particular item in the blight citation was determined by an unqualified person, it
should be dismissed.

Page-1 9

Was the Siding Indeed “Seriously Damaged”?
In Item (4) of the blight citation, the Plaintiff was cited for having “seriously damaged
siding”. Hence, the question here is, “was the damage to the Plaintiffs siding really
serious enough to warrant a citation? The damage to the siding was generally minor,
consisting of small cracks and divots in a few locations, with no large sections of siding
broken or missing. Moreover, there is another, older layer of siding under the existing
siding, which still protects the home, even if the outermost ;layer of siding had been
slightly damaged.' So, by definition, small-, localized damage to,the siding was not..

'

“serious”,”as defined by The ordinance, so this, violation was downright, misapplied.. ,

Were the Outside Walls Indeed Not Weather-Tight?
In Item (5) of the blight citation, the Plaintiff was cited for supposedly not having the
outside structure walls weather-tight or water-tight. This violation does not apply here
because the outside walls are indeed weather - tight, owing to a second (older) layer of
siding installed below the existing siding. This siding is actually visible in certain areas
of the home. These two layers of siding together provide ample weather-protection for
the home. The home actually retains its heat quite well, and there;are no leaks. :- r.

The Hearing Officer Mav Have Had a Conflict of Interest
Prior to being permitted to appeal his blight citation to the. Superior Court; the home .
owner must attend a hearing on the matter before the City officials and;-a Citation,;
Hearing Officer”, whom the City designates. This hearing officer who presided over this
hearing, Sylvia Rutkowska, is actually a local attorney, who has business dealings, and
Page | 10

an attorney - client relationship with the City.. Due to these circumstances, the
Plaintiff believes that this local attorney was unlikely to be objective, and was more
inclined to decide in favor of the City, for fear of compromising her firm’s business
relationship, or otherwise alienating the City. For these reasons, the Plaintiff believes
that the Citation Hearing Officer should be someone completely external to
Middletown.

STATUTORY PROVISIONS INVOLVED
Section 7-152c of the Connecticut General Statutes, which pertains to the hearing
procedures for municipal citations, is relevant to this matter. Also relevant are general
internal procedures at Connecticut municipalities, which spell out the specific
procedures.

REASON FOR GRANTING THE PETITION
The Petitioner believes that this Court should grant this petition for the following
reason:
This matter is of somewhat significant public importance because it poses a key
question of whether existing Connecticut municipal blight ordinances violate key
constitutional safeguards of homeowners. “Public aesthetics should not be an interest
within the scope of the police powers,” as was the conventional wisdom in the United
States from about the year 1620, up until after the Second World War.

Page | 11

CONCLUSION
In light of the above, the Petitioner hereby requests this Court .to grant his.Petition for
a Writ of Certiorari.
. Respectfully submitted,

George .Berka,
Petitioner
August 27th, 2021

I

1

I

Page | 12
i

